CERTIFICATE OF COMPLIANCE

RUTH MCLEAN
Petitioner
v.
800 DC LLC
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
contains 4,178 words, excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 29,2021

fg^DERICK W. WRIGHT v
Wright Appellate Services, LLC
1015 Chestnut Street, 517 Jefferson Building
Philadelphia, PA 19107
(215) 733-9870*FAX (215) 733-9872^(800) 507-9020

RECEIVED
MAY - 7 2021

